                               SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-IB-14-15                                   Office of Inspections                                        July 2014




                            Inspection of the
                      Office of Cuba Broadcasting




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

      Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

      Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

      Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


                                            Table of Contents
     Key Findings                                                                1
     Context                                                                     2
     Leadership                                                                  4
       Morale                                                                    4
     Program Implementation                                                      6
       Broadcasting Board of Governor’s Strategic Plan                           7
     Journalistic Standards                                                      8
     Relations and Coordination with Voice of America Latin America Division,
     U.S. Interests Section in Havana, and other Federal Agencies                9
     Resource Management                                                        10
       Contracting                                                              10
       Contracting Officer’s Representative                                     11
       Financial Management                                                     12
       Property Management                                                      13
       Human Resources                                                          14
       Technology and Information Management                                    15
       Facilities                                                               15
     Management Controls                                                        17
       Unliquidated Obligations                                                 17
       Travel Arrangement for Acting General Manager                            17
       Property Management Records and Procedures                               19
     Security                                                                   22
       Office of Cuba Broadcasting, Marathon Transmitting Station,
       and Naval Air Station in Key West                                        22
       Security Officer Duties                                                  22
                                                                                23
[Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                                23
                                                                                23
                                                                                24
       Security Committee                                                       24
       Visitor Access List and Secure Telephone Equipment                       25
     List of Recommendations                                                    26
     Principal Officials                                                        28
     Abbreviations                                                              29




                                                iii
                                    SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Findings
   The Office of Cuba Broadcasting has focused its programming on subjects, such as news,
    sports, and entertainment that are generally censored by the Cuban Government. Besides
    radio (shortwave and mediumwave) and television platforms, the entity has made its digital
    platforms more robust, going beyond the news Web site by making available and distributing
    its programming in Cuba through innovative programs.

   The Office of Cuba Broadcasting is implementing successfully the Broadcasting Board of
    Governors’ 5-year strategic plan for 2012 through 2016, Impact through Innovation and
    Integration, and its own programming goals.

   Employee morale is a concern. Office of Cuba Broadcasting staff expressed that the current
    management does not communicate effectively and the decisionmaking processes lack
    transparency. Many employees expressed fear of reprisal by management if they raise
    concerns.

   Several administrative functions require greater oversight from administrative staff in the
    Office of Cuba Broadcasting and the International Broadcasting Bureau support offices,
    including the Office of Contracts, the Office of the Chief Financial Officer, and the Office of
    Property Management.

   The Office of Cuba Broadcasting has several administrative weaknesses in the areas of
    contracting, human resources, financial reviews of unliquidated obligations, property
    management, and travel.

   Two contracting issues require closer oversight: contract administration procedures and
    contracting officer’s representative designation.

   The security program requires attention, especially in the area of emergency preparedness
    and physical security at the Miami office.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection survey took place in Washington, DC, between September 11 and 30, 2013, and
October 17 and 31, 2013, and at the Office of Cuba Broadcasting in Miami, Florida, between
November 4 and 20, 2013, including site visits to the transmitting station in Marathon, Florida,
and the Naval Air Station in Key West, Florida. Ambassador John M. Jones (team leader),
Robert Torres (deputy team leader), Rich Astor, and Pasquale Capriglione conducted the
inspection. The inspection was interrupted by the U.S. Government shutdown in the first part of
October 2013.




                                        1
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Context
        The Office of Cuba Broadcasting (OCB), which is funded by the U.S. Government
through the presidentially appointed Broadcasting Board of Governors (BBG), was established in
1990 to oversee the operations of Radio and TV Martí, two broadcast services that provide
Spanish-language news, features, and entertainment programs to Cuba. In addition to radio and
television, OCB has an Internet site (www.martinoticias.com), all of which are known
collectively as the Martís.

       The 1983 Radio Broadcasting to Cuba Act1 requires Radio Martí to follow Voice of
America (VOA) journalistic standards and guidelines for presenting a variety of news and
information in an accurate and objective manner. The first transmission to Cuba began in 1984.
OCB has the following legislated mission:

        1.       Support the right of the people of Cuba to seek, receive, and impart information
                 and ideas through any media, regardless of borders;
        2.       Be effective in furthering open communication of information and ideas through
                 use of Radio Martí and Television Martí programming to Cuba;
        3.       Serve as a consistently reliable and authoritative source of accurate, objective, and
                 comprehensive news; and
        4.       Provide news, commentary, and other information about events in Cuba and
                 elsewhere to promote the cause of freedom in Cuba.

        The mission of the Martís under the current leadership is to open up the Internet in Cuba;
engage and empower Cubans with relevant information and news, as well as tools to circumvent
censorship; bring an open social network to Cuba; and allow Cubans to connect, converse, and
spread the word, free from government control. OCB today produces more content than any
other BBG language service. It broadcasts television and radio programming 24 hours per day
and runs an 18-hour digital media operation. Specifically, TV Martí programming includes
4.5 hours of daily newscasts, as well as programs about public affairs, culture, music, sports, and
entertainment. In 2013, OCB established multiple networks of independent journalists who are
providing unbiased reporting from Cuba.

       Radio Martí broadcasts on mediumwave and shortwave. It also broadcasts via satellite
and via purchased air time on a South Florida private television station. Both of these broadcasts
can be seen in Cuba. At the time of the inspection, OCB was testing placement of its
programming on an FM station from Key West.

       OCB and the VOA Latin America Division broadcast in the Western Hemisphere.
Although the Cuba-focused mission of the OCB differs from that of the VOA Latin America
Division, a 2011 Government Accountability Office (GAO) report addressed the need for
collaboration and an analysis of possible cost savings from sharing resources between the two

1
 Television broadcasting to Cuba (the Television Broadcasting to Cuba Act) comes under part D of title II (sections
241-248) of Pub. L. 101–246, Feb. 16, 1990, 104 Stat. 58, as amended (part of Foreign Relations Authorization Act,
Fiscal Years 1990 and 1991).


                                             2
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

entities.2 Cooperation between OCB and the VOA Latin America Division is one of the tactical
steps toward reaching the objectives of the BBG’s 5-year strategic plan.

        Cuba is one of the most politically and geographically isolated societies in the world. It is
not possible for BBG to conduct nationally representative audience surveys in Cuba because of
the highly restrictive political and media environment, though BBG is able to conduct some
focus groups with recent immigrants from the island. Given these circumstances, OCB measures
performance on the basis of daily interaction with the audience and a host of impact criteria,
including jamming and government responses to news coverage.




2
 GAO Followup report to the House of Representatives Committee on Appropriations, Subcommittee on State,
Foreign Operations, and Related Programs, Broadcasting Board of Governors Should Provide Additional
Information to Congress Regarding Broadcasting to Cuba, GAO-12-234R, December 2011.


                                           3
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Leadership
         The effective operation of any broadcasting entity depends, at least in part, on the
executive direction of its senior management. The OCB director is responsible for the strategic
planning of TV Martí; Radio Martí; and digital and social media platforms, including
www.martinoticias.com. The OCB senior staff comprises the acting general manager, the
director of administration, and the staff director. The general manager has the responsibility for
day-to-day operations of radio, TV, and digital platforms. The director of administration and the
staff director have oversight responsibilities for administrative functions. The acting general
manager, an employee from the International Broadcasting Bureau (IBB) Office of Performance
Review and former reviewer of OCB annual program review process, was on temporary duty
(TDY) status from April to September 2013 and now is on a temporary promotion as acting
general manager for 120 days until January 2014.

        The director started in November 2010. He has refocused the needs and interests of the
Cuban people with a vision of moving forward and not looking backward by putting more
emphasis on the digital platform. In 2011, he oversaw the complete overhaul of the station’s
programming and the relaunch of www.martinoticias.com. Officials from BBG and the
Department of State (Department) have a favorable view of the director for transforming OCB
into a multimedia news hub.

        Many OCB employees had concerns about the director’s management structure.
Although the director holds frequent town hall meetings to communicate with staff, the
employees view these meetings as “one-way communication,” and they feel that frank exchanges
or questions are not allowed. The director maintains that he encourages questions at these
meetings and has an open door policy, but many of the employees said the director does not
communicate how their concerns are being addressed. Others feel that that they are not consulted
as part of the decisionmaking process. The inspection team counseled the director on this and
other managerial issues and suggested remedial actions.

        The acting general manager has instituted a weekly meeting schedule with managers to
discuss programming issues. He attends weekly editorial board meetings and, according to his
own assessment, holds managers accountable. According to the OCB director, the acting general
manager has helped him by “taking the lead to reinvigorate and professionalize functions at OCB
that have become outdated.” However, in OIG personal questionnaires and interviews with OCB
employees staff indicated that the acting general manager’s management style has negatively
affected operations. He is viewed by many employees as being a micromanager. Many managers
told the inspection team that they are not empowered to make decisions, just to follow orders.
The inspection team brought these perceptions to the attention of the acting general manager and
the director.

Morale

        In responding to the OIG personal questionnaires and in interviews, many of the OCB
employees rated their morale as low. Some of the reasons cited for low morale included the lack
of transparency in decisionmaking, the inability to offer suggestions, and the lack of effective
communication. Others were concerned about raising any issues to the inspection team because

                                        4
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

of fear of retaliation by management. OCB management was surprised by the inspection’s
assessment on morale because in the 2013 Office of Personnel Management’s Federal Employee
Viewpoint Survey, OCB employees gave high scores in categories of work experience,
leadership, and supervisors.

        The inspection concluded that employee morale is a concern and senior management
needs to take additional steps to allow employees to offer suggestions and communicate with
them effectively without fear of reprisal or intimidation. It is important for OCB management to
make employees part of the decisionmaking process. The inspection team also determined that
the 2013 Office of Personnel Management’s Federal Employee Viewpoint Survey did not ask
questions about morale, but rather asked participants to rate their satisfaction in general
categories like work experience, leadership, and supervisors. The inspection team suggested that
OCB management form an employee working group to generate solutions for management on
addressing employees concerns. Low morale was an issue addressed in the 2007 OIG inspection
report on OCB and the 2009 GAO report on OCB broadcasting operations.3




3
 OIG Inspection of Cuba Broadcasting, Report No. ISP-IB-07-35, June 2007, and GAO report, Broadcasting to
Cuba: Actions Are Needed to Improve Strategy and Operations, GAO-09-127, June 2009.


                                           5
                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Program Implementation
        OCB radio and television programs seek to represent the best of U.S. media, providing a
contrast to Cuban state media. It increasingly tailors its products, realizing that consumption of
Martí media is against the law in Cuba. Recent Radio Martí programs added to the schedule
include a morning news magazine designed for “in and out” listening, lighter programming at
midday to reach casual listeners for shorter or longer periods, and coverage of Major League
Baseball and other sports unavailable to Cuban audiences. Television programs have paid more
attention to graphics and presentation style to provide a greater contrast with Cuban state media,
which still uses outdated technology. TV Martí products include nightly uncensored newscasts,
weekly specials that frequently highlight voices banned on the island, and a weekly program of
films produced in Cuba.

        According to OCB, between early 2011 and spring 2012, the number of daily visitors to
www.martinoticias.com increased. In FY 2013, Web traffic averaged between 180,000 and
200,000 visitors per month. Beyond these multimedia efforts, OCB has also engaged in an
aggressive campaign to distribute weekly its television programming content via broadcast,
Internet, and even hand-to-hand, via digital video disks (DVD) and flash drives. One of the most
successful new strategies is short message service (SMS) text messaging and emails. Cuban
citizens are able to contact the Martí newsroom directly to report news in the making and abuses
perpetrated by the Cuban Government or to provide valuable feedback.

        The inspection team reviewed documentation of OCB innovative programs in the digital
platform. To distribute Martí programming, OCB is delivering to Cuba 1,000 DVDs weekly. It is
estimated that each DVD will be viewed in 50 households. Using the latest, cutting-edge
technology, OCB is distributing flash drives made of paper, with a small electronic interface.
This flash drive can share electronic data and digitally connect with other devices. Taking
advantage of the increasing use of mobile telephones on the island, OCB launched Piramideo,
which is an SMS-based social network that makes it easier for people inside Cuba to share
information and connect with one another; this tool operates outside Cuban Government control.
OCB also launched El Pitirre, a biweekly newsletter that is sent to more than 75,000 email
addresses in Cuba.

        OCB began using Aero Martí, a leased aircraft-based television broadcast system
targeting Cuba for transmission of TV Martí programming in October 2006. Over the years, the
Cuban Government has jammed Aero Martí’s signal. The cost of this program from FYs 2006–
2013 was $35,677,660. During the inspection, Aero Martí was currently inactive, with storage
temporarily funded at $79,524 per year. Because of sequestration cuts, no funding was
appropriated for fuel expenses. OCB views the aircraft as a “special tactics” tool, suited for
broadcasting, should the Cuban Government stop jamming its signal. BBG has unsuccessfully
proposed ending the use of Aero Martí in its FYs 2013 and 2014 Congressional Budget
Requests, stating that Aero Martí should be eliminated because of decreases in its cost-
effectiveness and increased fuel-related costs.4 In 2013, the Aero Martí program was halted as a

4
    Broadcasting Board of Governors Fiscal Year 2014 Congressional Budget Request, April 2013.



                                             6
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

result of sequestration. With the approval by Congress of BBG’s FY 2014 budget, the program
officially ended in April 2014.

Broadcasting Board of Governor’s Strategic Plan

        Many of the tactical steps outlined in BBG’s 5-year strategic plan are also activities that
OCB is very much engaged in, including #3: Seize Targeted Growth Opportunities, which OCB
does by engaging with younger audiences through all digital initiatives; #4: Prioritize Support
for Democracy and Countering Pockets of Extremism, which OCB supports by interviewing
leaders of the dissident movement in Cuba, such as Yoani Sánchez, Berta Soler, Antonio
Rodiles, Eliecer Avila, Guillermo Fariñas and others; #5: Rationalize Program Delivery; #6:
Combat Internet Censorship and Jamming; #7: Elevate and Expand Social Media Innovation;
#8: Employ Leading-Edge Communication Techniques and Technologies; and #11: Spur
Development through Targeted Media Initiatives and Training. OCB addresses all of these
through the new emphasis on digital and social media and Internet anticensorship activities.

        The director noted that OCB has a long-term strategic plan, which is reviewed every 6
months. According to the director, because the environment in Cuba is rapidly changing, OCB’s
long-term strategic plan for Cuba broadcasting sometimes feels like a “short-term” plan. OCB
adjusts its programming quickly to take advantage of changes that occur on the island. The
inspection team reviewed OCB’s plan and suggested that it could be more robust by including
information on how BBG resources and assets might best be deployed to engage with Cuban
audiences. If Cuba allows OCB to be present on the island, it will have significant resource
requirements. OCB management stated that it intends to redirect existing resources from Miami
to Cuba in the event this occurs, just as it is already directing more resources to journalists
reporting from the island.




                                        7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Journalistic Standards
        Credibility is essential in any news organization, and OCB must earn and sustain
credibility with its audience. As stated before, the 1983 Radio Broadcasting to Cuba Act requires
Radio Martí to follow Voice of America journalistic standards and guidelines for presenting a
variety of news and information in an accurate and objective manner. In addition to the VOA’s
journalistic standards, OCB’s editorial guidelines are provided to employees as they make day-
to-day editorial decisions such as balance, proper sourcing, and tone. The director agrees that
OCB should engage Cubans and empower them with relevant information and news and not
provide a propaganda counterweight to the Cuban Government’s efforts.

        In the past, the IBB Office of Performance Review has recommended that OCB improve
its adherence to certain aspects of journalistic standards. This issue was raised in the 2007 OIG
inspection report and in the 2009 GAO report. However, in the past 2 years, according to the IBB
Office of Performance Review reports, OCB has made dramatic changes to ensure that
journalistic standards are met. Managers assured the inspection team that journalistic codes are
enforced through reminders at editorial meetings as well as by direct supervision by program
chiefs. The inspection team commended OCB for ensuring that journalistic standards are
followed.




                                        8
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Relations and Coordination with Voice of America Latin
America Division, U.S. Interests Section in Havana, and
other Federal Agencies
       OCB maintains good working relationships with various U.S. Federal agencies, including
the Department; the U.S. Agency for International Development; and the Department of
Defense, U.S. Southern Command. The inspection team interviewed representatives of these
agencies, all of whom have a favorable impression of current OCB operations.

        OCB also maintains a professional working relationship with all BBG broadcasting
entities, including the VOA Latin America Division. As stated in the OIG inspection report of
the VOA Latin America Division,5 relations between OCB and the VOA Latin America Division
are collegial and collaboration between them is growing. OCB has used the Spanish Service’s
radio content for many years and shares its own radio content with VOA. OCB provides the use
of its Miami television studio for VOA Latin America Division’s Foro Interamericano program
when the show’s guests find it easier to travel to Miami than to Washington. The two have
collaborated in covering special events; for example, the Spanish Service reporters are featured
live on Radio Martí broadcasts. OCB’s Web site, www.martinoticias.com, links to VOA’s Web
site, www.voanoticias.com, which has no reciprocal link to OCB’s Web site.

       Regarding the collaboration of the two entities, the OIG inspection report for the VOA
Latin America Division includes a recommendation to direct OCB and the VOA Latin America
Division to implement specific collaborative actions respectful of their different missions, as
outlined in the BBG’s 5-year strategic plan. At the time of the inspection, some progress had
been made in implementing this OIG recommendation.

         OCB has regular contact with the U.S. Interests Section in Havana and maintains
appropriate working relations. OCB has been instrumental in the production of public service
campaigns used by the Department, such as an antigang initiative now underway. The public
affairs section keeps OCB journalists aware of mission events and activities.




5
    Inspection of Voice of America Latin American Division, Report No. ISP-IB-13-49, September 2013.

                                              9
                                 SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Resource Management

    Funding                  Employees (actual)                  General           Salary       Total
     Source                                                     Operating
                                                                Expenses
FY 2014             Direct        Purchase       Stringers
President's         Hires          Order
Budget                            Vendors
Request
                      111             67             16        $10,856,757 $12,947,243 $23,804,000
Source: OCB as of 12/05/2013

       The OCB FY 2014 funding is estimated at $23.8 million, as published in the BBG
FY 2014 Congressional Budget Request. As of December 2013, OCB had 111 full-time direct-
hire employees, supplemented by 83 purchase order vendors and stringers.

Contracting

        The IBB Office of Contracts has contracting officers who have a warrant for OCB
contracts for more than $100,000 and three OCB contracting officers with a warrant for less than
$100,000. Thirteen service contracts were awarded for FYs 2012 and 2013 worth a total of
$3,272,083 and $2,738,288, respectively. In FY 2012, purchase order vendor contracts numbered
106, at a cost of $2,397,108; and in FY 2013, these contracts numbered 82, at a cost of
$2,347,268. These contracts provide support services to OCB programs, including radio and TV
production.

        The OIG preliminary audit in August 2013 had findings about the IBB Office of
Contracts acquisition process.6 The OIG auditors selected 34 contracts, one of which was an
OCB contract, to determine BBG’s compliance with the Federal Acquisition Regulation (FAR)
in carrying out the acquisition process. This inspection also performed a limited review of OCB
contracts. The inspection team found some of the same noncompliance with the FAR during the
presolicitation, preaward, and contract administration phases For example, during the
presolicitation and precontract award phases, the inspectors did not find documentation to
support the performance of acquisition planning and market research, as required by FAR 7.102
and FAR 10.001(a), respectively. The review of OCB’s contract administration revealed no
evidence that the IBB Office of Contracts has provided the contracting officers with contract
administration procedures.

        During the contract administration phase, the contracting officers did not always
document involvement in contract administration, as stated in FAR1.602-2. For all three of the
above acquisition phases, the contract files did not always have adequate documentation in
accordance with FAR 4.801(b) and FAR 4.802(a)(1) and (2), especially for official contract files
located in the IBB Office of Contracts. Not adhering to contracting requirements leads to major
financial vulnerabilities.

6
    OIG Outline for Action: Management Attention Needed to Improve BBG Acquisition Functions.

                                            10
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 1: The International Broadcasting Bureau, in coordination with the Office of
Cuba Broadcasting, should implement oversight and contract administration procedures for
Office of Cuba Broadcasting contracts, in accordance with the Federal Acquisition Regulation.
(Action: IBB, in coordination with OCB)

Contracting Officer’s Representative

       OCB’s contracting officer’s representatives (COR) were not appointed in a timely
manner. One COR, who was appointed for four OCB contracts, did not have a COR formal
designation for 1 year. In other instances, it took up to 2 months for a COR to receive a
designation letter from the IBB Office of Contracts. A COR should be officially designated when
any contract is awarded. A COR designation letter should be in writing, in accordance with the
FAR 1.602-2(d). Furthermore, FAR 1.603-3(a) states that appointments of CORs shall be
maintained in the contract files. Such designation letters were not included in most contracts
reviewed. In the few contract files that had designation letters, the letters were not always signed
and dated to confirm COR duties and responsibilities as stated in FAR 1.604(a). The IBB Office
of Contracts and the OCB Administrative Directorate share responsibility for the lack of
enforcement of COR procedures. This oversight deficiency resulted in OCB having an
unauthorized commitment for $10,534 in early 2013. The IBB Office of Contracts ratified this
unauthorized commitment promptly.

Recommendation 2: The International Broadcasting Bureau, in coordination with the Office of
Cuba Broadcasting should officially designate in writing contracting officer’s representatives for
Office of Cuba Broadcasting contracts, confirm that the designation letters are signed and dated,
and include the designation letter in the contracting files, in accordance with the Federal
Acquisition Regulation. (Action: IBB, in coordination with OCB)

        The inspectors also reviewed the CORs administrative procedures and found weaknesses.
Most CORs have other program and management duties. The contracts for purchase order
vendors have many program deliverables that must be verified and accepted by the CORs before
being approved for payment. CORs have other contract administration requirements stated in the
designation letter, including those relating to maintaining files on all government actions
pertaining to the contract, interaction with the contractor, all contractor invoices, and progress
reports.

        The CORs were generally aware of the purchase order vendor contract deliverables, but
contract administration and documentation did not keep pace. If the responsibilities cannot be
fully carried out in a timely and effective manner, the contracting officer should appoint a
contracting officer’s technical representative to assist the COR. None of the CORs completed the
contractor performance evaluation for submission to the contracting officer upon completion of
the purchase order vendor contract. At the conclusion of the inspection, OCB agreed to
emphasize the requirement for contractor performance evaluations. Not enforcing the CORs to
follow their administrative tasks may lead OCB to pay for services that have not been verified.

Recommendation 3: The Office of Cuba Broadcasting, in coordination with the International
Broadcasting Bureau, should require that contracting officer’s representatives for purchase order
vendor contracts comply with contract administration requirements outlined in designation letters
and complete the contractor performance evaluation. (Action: OCB, in coordination with IBB)
                                       11
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Blanket Purchase Agreement

        In accordance with FAR 13.303-1, a blanket purchase agreement (BPA) is a simplified
method of filling anticipated repetitive needs for supplies or service. The IBB Office of
Contracts has considered obtaining purchase order vendor services through the use of purchase
orders in lieu of BPAs. An OIG audit report found that the IBB Office of Contracts entered into
hundreds of personal services contracts without statutory authority and that contractors regularly
worked without valid contracts in place.7 The contracts in question are for purchase order
vendors. The inspectors questioned the appropriateness of using BPAs for OCB purchase order
vendor contracts and purchase orders to obtain purchase order vendor services. According to a
senior officer in the Office of Contracts, “the use of BPAs has made the [Federal Procurement
Data System–Next Generation]8 reporting requirements unmanageable.” The same officer stated
that, with fewer orders to administer and close out, replacing BPAs with purchase orders could
reduce accounting errors, decrease unliquidated obligations, and reduce administrative
operations. The inspection team concluded that BPAs and purchase orders are not the appropriate
mechanisms for obtaining services from individuals who have an employer and employee
relationship. Using a personal services contract is the proper mechanism.

Recommendation 4: The International Broadcasting Bureau, in coordination with the Office of
Cuba Broadcasting, should stop using blanket purchase agreements and purchase orders for
purchase order vendor contracts and obtain personal services contract authority for all purchase
order vendor contracts. (Action: IBB, in coordination with OCB)

Purchase Card

        In reviewing the OCB purchase card program, the inspection team identified instances
where not all sources of supply were reviewed and documented before obtaining the item
through a local vendor or through an Internet vendor. Although some purchases were deemed to
be time critical, others, such as computers, were not. The BBG purchase card manual requires
obtaining items through Federal sources, such as the General Services Administration, as stated
in FAR 8.002 (1). The inspection team counseled the purchase card program coordinator at the
IBB Office of Contracts to remind purchase card holders, especially those at OCB, to obtain to
the extent possible supplies and services from the Federal supply sources.

Financial Management

        The BBG’s chief financial officer provides effective support to OCB. The office
regularly coordinates with OCB’s administrative staff regarding ongoing financial operations,
keeps in close communication with OCB’s director of administration, and provides information
on current budgetary issues.




7
 OIG Outline for Action: Management Attention Needed to Improve BBG Acquisition Functions.
8
 The Federal Procurement Data System – Next Generation reports OCB contract spending to USASpending.gov
and is accessible to the public.

                                         12
                             SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

Usage of U.S. Government Travel Cards

        The inspection team reviewed the FY 2013 travel authorization and vouchers for the top
five travelers at OCB. The review revealed that that two of the five travelers did not have a U.S.
Government travel card. One of these travelers was the OCB director, who took 20 trips during
FY 2013. When the inspection team brought up the travel card issue to the OCB director, he
agreed to apply for a U.S. Government travel card.

        The review also revealed that one OCB employee, who does not travel often, has a travel
card, and another employee who has a travel card chose not to use it for the three trips taken
during FY 2013. In accordance with the Broadcasting Administrative Manual (BAM) 4-665.1,
Use of Travel Card, one important purpose of using the travel card is to reduce the need for
travel advances. During the course of the inspection, the Office of Chief Financial Officer started
reviewing all OCB travel card holders’ usage to determine whether a travel card is needed.
However, the inspectors concluded that OCB also shares oversight responsibilities for the travel
program. Failure to perform periodic reviews of travel cards may lead to employees
inappropriately using the cards.

Recommendation 5: The International Broadcasting Bureau, in coordination with the Office of
Cuba Broadcasting, should review periodically the Office of Cuba Broadcasting’s travel card
usage. (Action: IBB, in coordination with OCB)

Property Management

       OCB uses the Property Inventory Processing System to track real property,9
nonexpendable property,10 and all capitalized real and personal property in its Property Inventory
Processing System. OCB also uses the Property Inventory Processing System to track
noncapitalized property. The inspection team identified several property management
weaknesses. They are described in the Management Controls section of this report.

       As part of the requisition process to purchase equipment, a requesting office identifies
equipment as accountable property. An accountable item is any equipment worth less than
$5,000 or sensitive property (i.e., a laptop). A review of items on purchase order logs found that
some equipment items were erroneously identified to be accountable by the requesting office. It
appears that some requesting offices did not have an understanding of what makes an
accountable item. The inspection team suggested that OCB review the accuracy of accountable
property and remind requesting offices about the definition of an accountable item.

       The inspection team reviewed items valued at more than $10,000 in the OCB inventory.
The review included items in the OCB warehouse, the Miami office, the Marathon Transmitting


9
  Real property assets primarily consist of administrative and transmitting facilities, including land, used for the
mission of BBG. The major classes of real property are land, buildings, and structures.
10
   Nonexpendable, noncapitalized property has an acquisition value between $5,000 and $25,000. Capitalized
property is over $25,000. Other sensitive items less than $5,000 are controlled by OCB, including laptop computers,
iPads and tablets, cameras, wireless microphones transmitters and receivers, camcorders, VCRs, and mini digital
video equipment and monitors.

                                            13
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

site, and the Naval Air Station in Key West. Most items were located and appeared to be in good
condition, but others were difficult to find. For example, three items were listed as being located
in the Miami office but were in the warehouse, pending disposal as excess property. One item
listed in Marathon was found at the OCB warehouse. The issue of management controls in the
OCB property management program is discussed under the Management Controls section of this
report.

Human Resources

       The IBB Office of Human Resources provides adequate support to OCB. Because of
budget constraints, at the time of the inspection the human resources specialist position had been
vacant for 9 months, with no plan for filling it. As a result, OCB has assigned human resources
functions to different administrative personnel. The inspection team did not receive any concerns
from employees about human resources support.

Performance Evaluations

        The performance evaluation process needs attention from all OCB managers. At the time
of the inspection, for the 2011–2012 rating period, two performance evaluations were still
delinquent. For 2012–2013, OCB management told the IBB Office of Human Resources, as well
as the inspection team, that most performance evaluations were delayed because of construction
in the office and difficulty accessing files and documents. A few managers asserted they were in
the process of completing the performance evaluations by the end of November 2013.

        Several employees reported that the employee evaluation process was perfunctory.
Although most employees get informal feedback about their performance, some said that they
were just given a competed performance evaluation form to sign and were discouraged from
reviewing it or adding to it. In accordance with the Manual of Operations and Administration 5-
450, Performance Management, it is the responsibility of the rating officer to prepare a timely
performance evaluation and use the document to discuss with the subordinate the duties and
performance requirements of the position, as well as the employee’s performance. This process
also provides an opportunity for supervisors and employees to identify the employee’s strengths
and areas in which performance could be improved or supervisory assistance is required.

Recommendation 6: The Office of Cuba Broadcasting should finalize the 2011–2012 and
2012–2013 annual performance evaluations for all employees. (Action: OCB)

Position Descriptions

        A review of position descriptions revealed inconsistencies in the designation of
supervisory responsibilities. Some position descriptions did not reflect current responsibilities.
According to the IBB Office of Human Resources, all position descriptions were updated
between 2009 and 2010. In addition, OCB managers were asked to review the position
descriptions of all employees in 2012. As a result, the position descriptions were unchanged from
the earlier review and no updates were necessary. The supervisor indicated changes needed to be
made in only a few cases. The IBB Office of Human Resources has been working with OCB to
resolve this issue but has made little progress.

                                       14
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Employees expressed to the inspection team that some of their duties have changed
dramatically as a result of being moved to other functions within OCB. They attested that their
responsibilities have changed but were not reflected in their position descriptions. Given that the
IBB Office of Human Resources is in the process of updating some OCB position descriptions,
the inspection team suggested that OCB ask all managers to review the position descriptions of
their employees.

Training

        OCB has a dedicated employee who is responsible for identifying and enrolling staff in
training courses. Although most employees said they receive training from time to time, no one
keeps track of the employees’ training courses or the training courses that employees need to
take for professional development. A more systematic approach would help OCB to have a better
understanding of the staff’s skills gaps. The inspection team suggested that OCB implement a
training plan for all employees.

Equal Employment Opportunity

        Employees indicated that they were aware of the Equal Employment Opportunity (EEO)
program, the Office of Civil Rights, and the Office of Ombudsman. The inspection team noted
that the office does not have a dedicated EEO bulletin board. The EEO and sexual harassment
information posted at the entrance of the facility dates from 1999. The inspectors asked OCB
management to take down the outdated information and post BBG’s most recent EEO policies.
The IBB Office of Civil Rights staff visited OCB in early 2014.

Technology and Information Management

         The OCB computer services division meets the needs of the OCB users as demonstrated
in the OIG questionnaires, in which most respondents expressed high satisfaction with
information technology support. With the assistance of the BBG Information Technology
Management Division, the OCB computer services division has an action and milestones plan
that lists the significant issues associated with the information technology systems. OCB updates
the plan often to show progress in correcting and mitigating the issues listed on the plan.

Facilities

Fire and Construction Implications

         On April 21, 2013, OCB had fire damages to an exterior wall. The smoke and the
sprinklers damaged 10,000 square feet of office space, which represents 20 percent of the
building’s floor space. The Dade County Fire Department Investigation Report concluded that
the fire was accidental. As a result of the damage inside the building, 50 OCB employees were
displaced and took temporary quarters in other offices and on long tables throughout the
building. OCB staff expressed to the inspection team health concerns from the initial smoke
inside the building. OCB management contacted an independent environmental testing firm to
measure the air quality in the building in the weeks following the fire. According to OCB,
additional air quality testing was conducted in March 2014, which confirmed that the air quality
in the building was safe.
                                       15
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The building renovation and reoccupancy by OCB staff has been much slower than
anticipated. This delay has been reportedly due to the building owner and the insurance company
being at odds over the insurance claim. BBG and OCB officials repeatedly asked the General
Services Administration to issue a cure notice to the landlord for failure to diligently proceed
with fire repairs.

        After weeks of appeals to various General Services Administration officials, the notice
was issued. At the time of the inspection, construction to damaged areas was underway. The
acting general manager proposed changes to two renovation and construction projects that OCB
management had previously approved and were in progress. First, proposed changes to the
newsroom floor plan and furniture configuration would have required additional desktops for
cubicles and new frames, panels, and electrical equipment. Also, the furniture installer had been
scheduled under the prior configuration and other contractors also had been scheduled to provide
services for the renovation and transition of personnel back to normal operations.

        The inspection team requested a cost and schedule impact if the acting general manager’s
proposed changes were carried out. The building owner emphatically stated that he had paid for
interior renovations, such as new carpeting and electrical and fiber optic cabling, and that he
would not pay for having to redo much of this work. After the inspection team inquired about the
issue, the acting general manager agreed to use the original newsroom configuration plan.

Safety

        The use of the automated external defibrillator (AED), combined with knowledge of
cardiopulmonary resuscitation, can be essential in saving someone’s life. OCB claims that 18
employees in the Miami office were trained on the use of the AEDs in September 2013.
According to OCB, employees at the Marathon transmitting station have been trained by the Red
Cross in the past and will receive refresher training later in 2014. The inspection team did not
identify the 18 employees allegedly trained in September 2013, either in the use of the AED or
how to perform cardiopulmonary resuscitation. In addition, the inspectors did not receive
specific information regarding when the AED training will take place for employees in the
Marathon transmitting station.




                                       16
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Management Controls
       The inspection team identified several management control weaknesses in administrative
operations, including lack of financial management review for unliquidated obligations,
anomalies in the travel of the acting general manager, and lack of contracting oversight and
property management procedures.

Unliquidated Obligations

        As of September 3, 2013, prior to the on-site inspection, OCB had approximately
$2.2 million in unliquidated obligations for FY 2013. The BBG Office of Chief Financial Officer
generates a monthly status of unliquidated obligations report.11 These reports are sent to BBG
offices, including OCB, for review. OCB asserts that it reviews monthly unliquidated obligations
reports received from the Office of Chief Financial Officer and deobligates items that are
determined to be no longer valid. However, given the large amount of unliquidated obligations in
FY 2013, it leads the inspection team to determine that OCB has not been periodically reviewing
obligations and certifying whether they are still valid or whether funds or available balances can
be deobligated.

        The BBG Office of Chief Financial Officer sent a memo, dated July 8, 2013, that requires
all BBG offices to “review all other unliquidated obligations made in prior years against funds
that are now expired before the end of the fiscal year.” During the course of the inspection, OCB
had reduced the total unliquidated obligations to $1,611,312. Despite this effort, unliquidated
obligations totaling $188,015 from FYs 2009–2012 still remain. Unliquidated obligations in the
amount of $40,632 have no-year budget authority. These funds in particular can be
reprogrammed for other OCB programming use.

Recommendation 7: The Office of Cuba Broadcasting should deobligate $188,015 in
unliquidated obligations for FYs 2009–2012, reprogram $40,632 in unliquidated obligations that
have no-year budget authority, and implement a review system for future unliquidated
obligations for potential deobligation. (Action: OCB)

        OCB is continuing to reduce the unliquidated obligations from prior years. Since the time
of the on-site inspection in November 2013, the unliquidated obligations have been reduced. At
this time, OCB holds only $47,718 in unliquidated obligations for FYs 2009–2012. The
inspection team commends such action and encourages the continuing reduction of the other
unliquidated amounts cited in this report.

Travel Arrangement for Acting General Manager

       The acting general manager has a unique travel arrangement. On June 19, 2013, about 2
months after the temporary detail started, OCB, the IBB Office of Performance Review, and the
Office of the Chief Financial Officer entered into an informal travel arrangement that describes

11
  A recorded obligation reduces by the amount of payments made on bills received. The obligated balance still
owed is the unliquidated balance. When all services or goods have been received and paid for, the obligation is
considered liquidated, and any remaining balance should be deobligated to make the funds available for other uses.

                                            17
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

the travel support for the OCB acting general manager. On the basis of the needs of OCB and the
Office of Performance Review, the acting general manager, who is an employee with the IBB
Office of Performance Review based in Washington, DC, is on extended detail and TDYs
between Washington, DC, (permanent duty station) and Miami (TDY location). Directors of
both OCB and the Office of Performance Review have agreed to let the employee commute as
needed between his permanent duty station, TDY location, and his home in Los Angeles (his
second residence). The extended TDY began in early April, with no foreseeable end date.

        For trips made from April to June 2013, the Office of the Chief Financial Officer
coordinated and made travel arrangements for the acting general manager, including the
nonofficial travel segments to his Los Angeles home or other locations on the West Coast.
Airfare cost is capped at the constructed roundtrip fare or a Government refundable fare between
Washington, DC, and Miami roundtrip, whichever is lower. The inspection team has evidence
that in April 2013 the IBB Office of Performance Review did a constructive travel analysis to
show the preliminary cost savings (inclusive of hotels and car rentals) that may be achieved from
these weekly weekend returns as compared to biweekly returns. However, the IBB Office of
Performance Review did not do an additional constructive travel analysis in May or June.

         After June 24, 2013, a new travel arrangement started because of the acting general
manager’s weekly weekend returns, departure to and from locations other than official travel
points, last-minute changes in reservations, and resource constraints in the IBB travel office. The
travel office agreed to continue making travel arrangements only for the official segments, and
the acting general manager will arrange the personal portion on his own. For example, if the trip
involves two segments—between Washington, DC, and Miami, which is official business, and
between Miami and Los Angeles, which is nonofficial—the travel office will be responsible for
the trip approval and ticketing within the E2 travel management system for the Washington, DC,
and Miami segment only.

       On September 22, 2013, the acting general manager’s status changed from part-time
TDY to a 120-day temporary promotion to OCB on a full-time basis. OCB and the IBB Office of
Performance Review agreed at the beginning of the temporary promotion that the IBB Office of
Performance Review would continue to pay the acting general manager’s salary during the
promotion period and that OCB would pay for all per diem and related travel expenses while he
is working in Miami.

       The inspection team reviewed information that suggested BBG can pay for the acting
general manager’s personal travel, as long as it is less than the cost of housing and per diem for
the same days. If the acting general manager’s personal travel is greater than housing and per
diem, OCB should be paid for it. A BBG official reviewing this situation stated, “The U.S.
Government can pay for travel only if it is work related. There is no legal authorization that
would enable a Federal agency to pay an employee’s personal expenses by claiming a cost
savings. That would not be appropriate and neither is using taxpayer funds for unauthorized,
non-work related travel.” The inspection team agrees with this official’s assessment.

        A review of the acting general manager’s current work schedule showed that he works 3
days a week in the Miami office and teleworks 2 days from California or Washington State.
OCB management supports this arrangement because the acting general manager has applied
corrective actions that he recommended when he reviewed the OCB operations as an analyst for
                                       18
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

the IBB Office of Performance Review. OCB management claims that “the savings in the
difference in salaries between [that] of the acting general manager and the former manager
almost solely make up for the TDY costs the acting general manager has incurred during the
TDY.” In the absence of constructive travel or any official cost-saving information, the
inspection team only used available travel vouchers to arrive at the conclusion that this
arrangement is costly.

        Between April and October 2013, BBG paid about $20,000 in travel costs. The inspection
team supports the idea of having a permanent full-time employee serving as general manager
instead of paying travel costs for the current acting general manager. To the acting general
manager’s credit, he has proposed several candidates to the director, but no one has been chosen
for the job. With decreased funding for travel costs, paying for someone to serve in a position in
a different duty station needs to be resolved.

Recommendation 8: The Office of Cuba Broadcasting, in coordination with the International
Broadcasting Bureau, should terminate the current travel agreement of the acting general
manager immediately and fill the general manager position with a full-time permanent employee.
(Action: OCB, in coordination with IBB)

Property Management Records and Procedures

        The OCB property management program had significant management control
deficiencies because, in accordance with BAM 12-107 Accounting for Nonexpendable Property
and Sensitive Equipment and Capitalized Property, the accountable property officer, under the
supervision of the property control officer, is responsible for ensuring that all nonexpendable
property and sensitive equipment is properly received and processed, including creating property
records in the Property Inventory Processing System and placing a BBG barcode that shall
remain affixed to the property from when it is received until it is disposed of.

         OCB management was not keeping property records current nor was it enforcing internal
controls for several reasons. One reason is that the OCB property control officer is also the
facilities and telecommunications manager; he also provides engineering assistance. The
inspectors also found that the IBB Property Management Office in Washington has not asked
OCB for updated property records. As a result, no OCB inventories were performed during FYs
2012 and 2013. According to OCB equipment purchase records from January through September
2013, 25 equipment purchases worth $5,000 or more were not reflected in the OCB property
records. Lack of accurate property records can lead to waste of property and vulnerabilities in
BBG financial statements.

Recommendation 9: The Office of Cuba Broadcasting should conduct and update inventory
records, provide updated reports to the International Broadcasting Bureau, Property Management
Office, and implement property internal controls procedures. (Action: OCB)

        In November 2012, OCB disposed of 166 items. Most of these items were computers and
laptops that were donated to a computer recycling company. An additional 37 items were
identified for disposal, but OCB had not disposed of them at the time of the inspection. The
inspection team was not able to determine why OCB did not have a regular disposal schedule or
why it donated the laptops to a recycling company. According to BAM 12-111.1, Property
                                       19
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Disposal Procedures (to include Property Transfers Outside of Agency), excess property should
be either transferred to another Federal agency or disposed of through the General Services
Administration.

Recommendation 10: The Office of Cuba Broadcasting should stop using its current disposal
practice and transfer all excess property to another Federal agency or dispose of it through the
General Services Administration. (Action: OCB)

       OCB has not provided accurate capitalized property reports to the IBB Property
Management Office, as required by BAM 12-114.2, Reporting on Property. For 2012, 13 of the
37 items marked for disposal are capitalized property. The items may still be depreciated, even
though the equipment is not in use and has been moved to the OCB warehouse.

        For 2013, capitalized property reports showed property locations that were not clear. In
addition, the capitalized property reports had material discrepancies in reporting. For example, a
UHF TV broadcasting system for Aero Martí was listed for $3,160,621 in the 2011 capitalized
property report. In the 2012 report, the same item was listed as $4,578,714, without explanation.
In 2013, the item had a value of $4,578,711. These discrepancies may be attributable to the
former accountable property officer, since retired, who purchased new equipment that was added
to the UHF system, thereby increasing total system costs by about $1.4 million, instead of
separately reporting the equipment. Capitalized property is an area that auditors address in
BBG’s annual financial statements. Not having accurate capitalized property reports negatively
affects BBG’s annual financial statements reports.

Recommendation 11: The Office of Cuba Broadcasting should perform an accurate capitalized
property inventory and provide the report to the International Broadcasting Bureau, Property
Management Office. (Action: OCB)

        OCB has items, such as portable video cameras, that are routinely removed for usage
without any hand receipts or property passes, as required by BAM 12-107.4, Hand Receipts, and
BAM 12-108, Removal of Property Non-Expendable Property. In June 2013, an OCB video
camera and related equipment valued at $25,154 were stolen from an OCB vehicle. The
inspection team found no evidence that a hand receipt was assigned to an employee or
employees. Currently, the property control officer does not follow a process to comply with
BAM 12-112, Reporting Lost, Stolen, Damaged, or Destroyed Property. This lack of
accountability and documented process in place may result in loss or theft of high-value items.

Recommendation 12: The Office of Cuba Broadcasting should implement issuance property
management procedures for all nonexpendable and sensitive property. (Action: OCB)

        OCB’s procedures for maintaining official records are not current. At the OCB
warehouse, the inspection team found about 200 unmarked boxes stacked on the warehouse
floor. The OCB property control officer had no records detailing the age or contents of the boxes
but believed that they may be old radio and TV program files. According to interviews with
some employees, the radio and TV offices performed a “housecleaning of documents a few years
ago” and sent paper files to the warehouse for storage. OCB officials said that the reason why the
records management function is not current is because of the newsroom fire in 2013, which
resulted in the displacement of employees and records. In accordance with BAM 3-500,
                                       20
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Communications and Records, public or sensitive records should be identified, maintained, and
disposed of accordingly.

Recommendation 13: The Office of Cuba Broadcasting should implement procedures for
maintaining and retiring official records. (Action: OCB)




                                      21
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Security
Office of Cuba Broadcasting, Marathon Transmitting Station, and Naval Air Station in
Key West

       The inspection team identified some security deficiencies in OCB facilities, mostly at the
Miami office. The Federal Protective Service, through private security guards, has around-the-
clock oversight responsibility. [Redacted] (b) (5), [Redacted] (b) (7)(F)




        The Marathon Transmitting Station has [Redacted] (b) (5), [Redacted] (b) (7)(F)




       The U.S. Navy controls the security program at the Naval Air Station in Key West, and
OCB provides proper security support for its building within the grounds. It has an office at the
Naval Air Station in order to manage the now-grounded transmitting plane from the Aero Martí
program. Currently, [Redacted] (b) (5)


         Prior to the on-site inspection of OCB, the IBB Office of Security provided to the
inspection team the security assessment trip reports from 2009 to 2013. The 2012 and 2013 IBB
security assessment reports were similar in describing minor security issues. The inspection team
concluded that some of the vulnerabilities identified during the course of the inspection could
have been identified in the IBB security assessments trip reports. The OIG team counseled the
IBB Office of Security senior staff on the need to conduct robust security assessments of BBG
facilities.

Security Officer Duties

        The OCB security officer has collateral administrative and security duties. Besides the
security portfolio, she is responsible for administrative actions, which include managing OCB’s
five vehicles, preparing travel authorizations and vouchers, serving as training officer, and
addressing personnel actions. Considering the high-profile and controversial nature of OCB’s
work and the number of employees who work at the facility,[Redacted] (b) (5), [Redacted] (b) (7)(F)
                                   The issue was raised in the 2007 OIG inspection report, which
recommended that OCB create a full-time security officer.

        In compliance correspondence between OIG and BBG, BBG indicated that a security
officer had been hired. [Redacted] (b) (5), [Redacted] (b) (7)(F)
                   He worked exclusively on emergency plans for 2 months in 2009, and       [Redacted] (b) (5), [Redacted] (b) (7)(F)



[Redacted] (b) (5), [Redacted] (b) (7)(F)



                                          22
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

      [Redacted] (b) (5), [Redacted] (b) (7)(F)


 [Redacted] (b) (5), [Redacted] (b) (7)(F)




      Emergency Preparedness

              The inspection team did not find any evidence that employees have participated in
      regular fire drills or intruder drills in the Miami office or at the Marathon Transmitting Station.
      These emergency drills are not considered top priorities. The OCB security officer has not
      designated safe rooms where employees would assemble during an intruder attack or evacuation
      meeting points in case of a fire. In the event of a fire or intruder crisis, valuable time would be
      lost giving directions to employees or placing all employees in safe locations. Sound security
      practices dictate that routine emergency drills are critical to a successful response in crises.

      Recommendation 15: The Office of Cuban Broadcasting should conduct and document routine
      fire and intruder drills and identify safe rooms. (Action: OCB)
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                23
                                    SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED
[Redacted] (b) (5), [Redacted] (b) (7)(F)




     Security Committee

              The 2010 Federal Interagency Security Committee Standards state that a Facility Security
     Committee should be in place to oversee security, life safety, and emergency plans at a Federal
     facility. OCB does not have a Facility Security Committee. The OCB security officer was not
     aware of this requirement. With a committee in place, acceptance and understanding of security
     policies would be better understood throughout OCB.
                                                24
                                    SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 19: The Office of Cuba Broadcasting should establish a Facility Security
Committee. (Action: OCB)

Visitor Access List and Secure Telephone Equipment

        OCB does not have a visitor access policy or a formalized system for tracking visitors.
Currently, guests often arrive at the facility without proper notification to the guards. In these
cases the guard at Post Three has to radio the guard at Post One, who then needs to get
authorization from the receiving employee. This process is inefficient and diverts the security
personnel’s attention toward the cumbersome task of tracking receiving employees and obtaining
verbal authorization. Good security practice mandates a formalized policy and procedure to
receive visitors at a Federal facility. The inspection team made a suggestion that OCB
management implement a visitor access process.

       In reviewing the storage of classified equipment, [Redacted] (b) (5), [Redacted] (b) (7)(F)




                                       25
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The International Broadcasting Bureau, in coordination with the Office
of Cuba Broadcasting, should implement oversight and contract administration procedures for
Office of Cuba Broadcasting contracts, in accordance with the Federal Acquisition Regulation.
(Action: IBB, in coordination with OCB)

Recommendation 2: The International Broadcasting Bureau, in coordination with the Office
of Cuba Broadcasting should officially designate in writing contracting officer’s representatives
for Office of Cuba Broadcasting contracts, confirm that the designation letters are signed and
dated, and include the designation letter in the contracting files, in accordance with the Federal
Acquisition Regulation. (Action: IBB, in coordination with OCB)

Recommendation 3: The Office of Cuba Broadcasting, in coordination with the International
Broadcasting Bureau, should require that contracting officer’s representatives for purchase order
vendor contracts comply with contract administration requirements outlined in designation letters
and complete the contractor performance evaluation. (Action: OCB, in coordination with IBB)

Recommendation 4: The International Broadcasting Bureau, in coordination with the Office
of Cuba Broadcasting, should stop using blanket purchase agreements and purchase orders for
purchase order vendor contracts and obtain personal services contract authority for all purchase
order vendor contracts. (Action: IBB, in coordination with OCB)

Recommendation 5: The International Broadcasting Bureau, in coordination with the Office
of Cuba Broadcasting, should review periodically the Office of Cuba Broadcasting’s travel card
usage. (Action: IBB, in coordination with OCB)

Recommendation 6: The Office of Cuba Broadcasting should finalize the 2011–2012 and
2012–2013 annual performance evaluations for all employees. (Action: OCB)

Recommendation 7: The Office of Cuba Broadcasting should deobligate $188,015 in
unliquidated obligations for FYs 2009–2012, reprogram $40,632 in unliquidated obligations that
have no-year budget authority, and implement a review system for future unliquidated
obligations for potential deobligation. (Action: OCB)

Recommendation 8: The Office of Cuba Broadcasting, in coordination with the International
Broadcasting Bureau, should terminate the current travel agreement of the acting general
manager immediately and fill the general manager position with a full-time permanent employee.
(Action: OCB, in coordination with IBB)

Recommendation 9: The Office of Cuba Broadcasting should conduct and update inventory
records, provide updated reports to the International Broadcasting Bureau, Property Management
Office, and implement property internal controls procedures. (Action: OCB)

Recommendation 10: The Office of Cuba Broadcasting should stop using its current disposal
practice and transfer all excess property to another Federal agency or dispose of it through the
General Services Administration. (Action: OCB)


                                       26
                           SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED

        Recommendation 11: The Office of Cuba Broadcasting should perform an accurate
        capitalized property inventory and provide the report to the International Broadcasting Bureau,
        Property Management Office. (Action: OCB)

        Recommendation 12: The Office of Cuba Broadcasting should implement issuance property
        management procedures for all nonexpendable and sensitive property. (Action: OCB)

        Recommendation 13: The Office of Cuba Broadcasting should implement procedures for
        maintaining and retiring official records. (Action: OCB)
    [Redacted] (b) (5), [Redacted] (b) (7)(F)




        Recommendation 15: The Office of Cuban Broadcasting should conduct and document
        routine fire and intruder drills and identify safe rooms. (Action: OCB)

        Recommendation 16: The Office of Cuba Broadcasting, in coordination with the International
        Broadcasting Bureau, should replace the emergency intercom at Post One with a modern system
        that includes automated voice instructions and alert sounds. (Action: OCB, in coordination with
        IBB)
[Redacted] (b) (5), [Redacted] (b) (7)(F)




        Recommendation 19: The Office of Cuba Broadcasting should establish a Facility Security
        Committee. (Action: OCB)




                                                   27
                                       SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                   Name     Arrival
                                                              Date
Director                           Carlos A. Garcia-Perez    11/10
General Manager (Acting)                    John Lippman     04/13
Director for Administration              Irvin Rubenstein    05/85
Staff Director                            Emilio Vasquez     11/10




                                      28
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
AED              Automated external defibrillator

BAM              Broadcasting Administrative Manual

BPA              Blanket purchase agreement

COR              Contracting officer’s representative

Department       U.S. Department of State

DVD              Digital video disk

EEO              Equal Employment Opportunity

FAR              Federal Acquisition Regulation

GAO              Government Accountability Office

IBB              International Broadcasting Bureau

OCB              Office of Cuba Broadcasting

OIG              Office of Inspector General

SMS              Short message service

TDY              Temporary duty

VOA              Voice of America




                            29
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
